■) w.v;'?: ■ ■

SUPREME COURT OF THE UNITED STATES
i. !

;• ! <

'

[^1 .r\

i
J

JAMES ARTHUR ROSS - PETITIONER

J i' J

c i

vs.

FILED
JAN 0 6 2021

JOHN MYRICK, et al. - RESPONDENT(S)

OFFICE OF THE CLERK
SUPREME COURT. U s

ON PETITION FOR WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

JAMES ARTHUR ROSS S.I.D.#I2599830
TWO RIVERS CORRECTIONAL INSTITUTION
82911 BEACH ACCESS RD.
UMATILLA, OR 97882

QUESTION(S) PRESENTED
1.

Did the District Court error by ignoring Oregon’s Wildcard Exemption Rule announced in ORS
18.345(l)(o)(2011) and in Schlunt v. Nooth, 261 Or. App. 866, 326 P.3d 1289(Or. App., 2014)
and Schlunt v. Nooth, 355 Or. 668, 330 P.3d 27 (Or., 2014)7

2.

Did the District Court error in not allowing the plaintiff to proceed to trial to present
evidence to a jury that the defendants were actively pursuing legislation to bypass the Oregon
Property Exemption Rules and law announced in Schlunt v Nooth, thus, showing they were
knowing of issues relating to the manner in which monies were being withdrawn from
Prisoners' bank accounts to pay towards such outside liens?

3.

Did the District Court error in determining that that the scope of this case was simply resolved
by determining that prison officials have the right to collect monies from a Prisoner's bank
account to pay towards debts and that such determination outrightly barred any litigation of any
kind on the matters?

4.

Did the District Court error in not allowing a pro se litigant any discovery or expert witness?

5.

Did the District Court error in determining that the defendants had met their threshold to satisfy
summary judgment, especially before shifting the burden onto the plaintiff?

6.

Did the District Court error in determining that Plaintiffs case had no genuine issues of fact
suitable for trial?

7.

Did the District Court error by not appointing counsel to represent the plaintiff in this complex
case? Alternatively, did the District Court abuse it’s discretion in not even requesting the
appointment of counsel? Alternatively, does a District Court have “inherent authority” to
appoint counsel regardless of §1915?

LIST OF ALL PARTIES

* All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:

*John Myrick, Superintendent of TRCI;
*B. Culp, Supervisor, Central Trust Office;
*D. Myers, Business Office, TRCI;
*Oregon Department of Corrections;
* State of Oregon;

(Please Note: That the titles listed above may have changed since the time of incident.)

TABLE OF CONTENTS

QUESTIONS PRESENTED

.2

OPINIONS BELOW.

6

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT.

10

CONCLUSION

17

INDEX TO APPENDICES

APPENDIX A - 9th Circuit Court of Appeals Order denying Petition for Rehearing/Rehearing en banc
APPENDIX B - 9th Circuit Court of Appeals Memorandum dismissing appeal
APPENDIX C - District Court Judgment
APPENDIX D - District Court Order Adopting in Part and dismissing case
APPENDIX E - District Court Findings and Recommendations
APPENDIX F - District Court Order Simultaneously denying the Appointment of Counsel and Class

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER(S)

Schlunt v. Nooth, 261 Or. App. 866, 326 P.3d 1289(Or. App., 2014)

2, 12, 13

Schlunt v. Nooth, 355 Or. 668, 330 P.3d 27 (Or., 2014)

2, 12, 13

Bahrampour.

12

Simmons v. Jackson, 2016 U.S. Dist. LEXIS 146942 (Oct. 24th, 2016)

15

Ulmer, 691 F.2d at 212

15

Pinson, 2015 U.S. Dist. LEXIS 27787, 2015 WL 1000914, at *1

15

SEC v. Stanford Int'l Bank Ltd, 2018 U.S. Dist. LEXIS 135690 (May 10'\ 2018)

15

United States v. 30.64 Acres ofLand, 795 F.3d 796 (1986)

16

Beard v. Banks, 548 U.S. 521, 530-33, 126 S.Ct 2572 (2006)

16

Garcia v. Davis, 2018 U.S. Dist. LEXIS 192801 (Nov. 09th, 2018)

17

Naranjo v. Thompson, 809 F.3d 793, 802 (5"* Cir. 2015)

11, 17

STATUTES AND RULES
ORS 18.345(l)(o)(2011)

2, 12, 13
12, 13

ORS 18.385(1)
OAR 291-158-0065

8

28 U.S.C. § 1245(1)

6

28 U.S.C. § 1915(d)

2,11

FRCP.

16

OTHER
There is more in depth arguments and facts to this case, with Statutes, Rules, Constitutional and
Statutory Provisions and Case Laws to cite, however, petitioner believes all of that is for the briefing
process and thus, petitioner was afraid as he does not know this process and is trying to do his best to
just have this Honorable Court accept this case for further proceedings.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

Federal Courts:
The opinion of the United States Court of Appeals appears at Appendix B to the petition
and is:
[x] reported at: Ross v. Myrick, (9th Cir. 2020).
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States District Court appears at Appendix D to the petition
and is:
[x] reported at: Ross v. Myrick, (D. Or. 2019).
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

JURISDICTION

Federal Courts:
The date of which the United States Court of Appeals decided my case was August 21st, 2020:
[ ] No petition for rehearing was timely filed in my case
[x] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date: October 05th, 2020, and a copy of the order denying rehearing appears at
Appendix A.
[ ] An extension of time to file the petition for writ of certiorari was granted to and including
(date) in Application No.
A
(date) on

The jurisdiction of this Court is invoked under 28 U.S.C. § 1245(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

First Amendment to the United States Constitution
Fourteenth Amendment to the United States Constitution
Oregon Constitution Article 1, Section 10
Oregon Constitution Article 1, Section 20

Mv rights to be free from illegal search and seizure, cruel and unusual punishment, equal
protections and reformation, due process of the law. Privileges or Immunities Clause, the
Oregon Poverty Rules, the Oregon Property Exemption Rules ORS 18.345(T)(o)(201P
and ORS 18.375.. O.D.O.C. Rules And Policies on their Mission, Codes of Conduct.
Codes of Ethics. Rules 20.1. 20.2. 20.3. and to be free from forms of slavery as
guaranteed to me bv and through the Oregon Constitution Article 1 $ 10. 16. 20 and the
United States Constitution Amendments 5th. 8th. and 14Ih and I have suffered prejudice as
a result.

STATEMENT OF THE CASE

On January 07th, 2016, Petitioner's P.R.A.S.(Program Recognition Award System)/Pay in the
amount of $77.90, which he receives for being enrolled in work programming in the Oregon
Department of Corrections, was posted to his Bank Account.
Then, on January 11th, 2016, which just happened to be the Petitioner's Birthday, and, before he
was afforded the chance to go to the Institution's Commissary line(Institution's store), an amount of
$49.65 was taken as a partial payment towards a post-conviction relief filing fee that was placed as a
'lien' against his bank account. This action was performed by one D. Myers of the Two Rivers
Correctional Institution's Business Office whom manages AICs'(Adults In Custody) bank accounts at
TRCI.
On February 04th, 2016, and pursuant to the rules and timelines of OAR 291-158-0065,
petitioner filed for an 'Administrative Review' of the stated deduction at the Two Rivers Correctional
Institution.
On February 10th, 2016, petitioner received a response dismissing his administrative review by
one B. Culp, Supervisor, Central Trust Office.
Immediately after which, petitioner filed a 'Notice of Tort', which was also denied to no avail on
September 18"', 2016.
On December 28th, 2017, petitioner filed his §1983 Civil Suit in the District Court of Oregon
raising his constitutional claims of violation for the unlawful, without statutory authority and
unconstitutional deductions as described above from his bank account and the denial of his
administrative review.
On December 26"’, 2018, United States Magistrate Judge Youlee Yim You issued her Findings
and Recommendations to grant the Defendants' motion for summary judgment and dismiss the case.
On April 18th, 2019, United States District Judge Marco A. Hernandez, issued a 3 page Order

Adopting in Part Magistrate Judge You's F&R and ultimately dismissing the case.
On May 15th, 2019, petitioner filed his appeal to the 9!h Circuit Court of Appeals, which was
denied on August 21st, 2020.
On September 03rd, 2020, petitioner filed a timely Petition for Rehearing, which was denied on
October 05th, 2020.
(Please Note: The above described actions have continued to this day. At some points, Petitioner’s bank
account has been 'zeroed' out, leaving him nothing and having to beg his friends and family members
for monies to afford the necessities for him to adequately make it through the work week, month, year,
etc., which he should never have had to do. This especially so, if O.D.O.C. is truly practicing what it
preaches in rehabilitation and treating it's prisoners as ’Adults In Custody' rather than 'inmates' or mere
'prisoners', 'slaves' and 'low lives’ of society.)

REASON(S) FOR GRANTING THE PETITION
Good morning your honors and may it please the court.
The case before you today is going to highlight a few “errors” in the justice system that amounts
to grave miscarriages of justice, which would justify this most Highest and Honorable Court's
intervention and articulation:
From my own experiences in pursuing Civil Rights Litigations, one brightline fact is that lower
federal courts continuously deny pro se and incarcerated individuals the appointment or assistance of
counsel. They do not even attempt to try and assist a pro se and incarcerated litigant in obtaining the
assistance of counsel. Every time Courts always give the same response that “the petitioner can
adequately articulate his/her claims to the court”.
However, the problem is that these denial orders are all carbon copy denials. I can literally
provide this Honorable Court with several such denial orders from several different federal judges out
of the Oregon/9th Circuit Courts if my case is allowed to proceed.
Yet, after denying the plaintiffs any discovery, expert witnesses or anything of the kind, the
courts will always dismiss stating that “the plaintiff has failed to show or prove to this court his/her
claims”, which always happens in a summary judgment proceeding. Pro se and incarcerated individuals
representing themselves do not get the benefits of any trial proceedings. Let's face it, the summary
judgment stage is their trial proceeding as they a far to often forced to prove their case beyond a
reasonable doubt to a judge in such a preliminary proceeding and always without the assistance of
counsel or any discovery, expert witnesses or any real resources that would even give them a standing
while facing off with such a massive entity as a State.
This is the epitome of everything wrong with the system. The defendants, usually prison
officials, are given the full and relentless force of the power of the State for representation, while
denying the plaintiff, whom's claims are to be taken as true, at least initially, no representation,
resources, nothing at all, which is an impossible task for pro se and incarcerated litigants.

A prisoner cannot get a class representing him or herself. Cannot get any documents as they are
related to “security” protections of the prison, and, cannot get the court to allow any discovery,
witnesses or representation. This especially so when moving from the initial screening stage into to the
discovery and trial stages, which the summary judgment has become the new trial stage, especially for
unrepresented and incarcerated litigants.
It is my intention to show to this court the unconstitutionality of this and the fact that regardless
of §1915, courts have an inherent authority to appoint one of their officers to help assist in the
advancement of the case, and, if the court, in the very least, does not try to assist a party in obtaining
counsel willing to serve for little or no compensation, it's failure to do so amounts to an abuse of
discretion.
Just as the Court noted in Naranjo v. Thompson, 809 F.3d 793, 799 (5th Cir. 2015):
3) When a pro se litigant proceeds to trial after having been denied appointed counsel, his
performance at trial is affected by that denial, and the denial is held erroneous on appeal, the
ordinary remedy is remand for retrial with the assistance of recruited pro bono counsel.
Similarly, where a denied motion for appointment of counsel is followed by a denied motion to
amend the complaint, the Eleventh Circuit has indicated that a plaintiff should be afforded a
renewed opportunity to amend his complaint on remand with the aid of counsel;
AND,
5)Because summary judgment’s consequences are so severe, courts must always guard against
premature truncation of legitimate lawsuits merely because of unskilled presentations.
Thus, taking into consideration that the summary judgment stage has become the pro se and
incarcerated litigant's trial stage, denying counsel or in the bare minimum, refusing to even attempt to
assist the pro se litigant in obtaining counsel willing to serve for little or no compensation, is an abuse
of discretion, which does substantially affect the outcome of the proceeding.
However, it does not simply stop there. The issues are even bigger as the District Court further
refused to acknowledge Oregon's own rules and prior court rulings on the matters. This has become
another injustice and miscarriage of justice carried out by the federal courts.
It appears to be a trend in Oregon and the 9th Circuit Courts as of late where courts are citing

other cases of similar natures to completely override the specific issues in any other individual
complaint based on other issues or aspects of the issues.
For example, the Oregon/9th Circuit Courts continuously use the case of Bahrampour to dismiss
all claims and complaints against Oregon's mail rules on sexually explicit material. Yet, the ruling in
Bahrampour merely holds that Oregon's mail rules on such are constitutional.
However, if you try to raise a complaint that Oregon is not following their own rules, the
complaints are still dismissed citing Bahrampour. There are several cases that can be cited to this fact
as proof in briefing.
And, just like this case at hand is not about a Prison’s ability to withdraw funds from an AIC's
prison bank account that he or she may or may not have agreed to. Nor is it about the ability to have
such liens applied to an AIC's prison bank account.
This case is about how, when, how much at a time and how often can said withdrawals to pay
towards such debts that have been attached as liens against their bank accounts can occur. It is mor like
an issue of when a sentencing court goes to impose multiple convictions or sentences. It is not an issue
of whether the judge has the authority to do so, rather it is an issue of the rules in place that he or she
must follow when doing so in order to not violate a persons constitutional rights. As a sentence
imposed without statutory authority is void, unlawful and unconstitutional. Just as the actions are of
prison officials whom collect monies from an AIC's bank account outside the scope authorized by law
or statute, in this case is ORS 18.345(l)(o)(2011) and ORS 18.385(1) and further clarified as applying
to an AIC's bank account in Schlunt v. Nooth, 261 Or. App. 866, 326 P.3d 1289(Or. App., 2014) and
Schlunt v. Nooth, 355 Or. 668, 330 P.3d 27 (Or., 2014).
Yet, courts, as has happened in this case, will continuously cite other cases that refer to a
Prison's ability to do so, or, the ability for the lien to be placed against your bank account and cite your
agreement to it, etc., rather than pay attention to the core of your concerns and claims, which again,
counsel would of been of a great benefit in being able to do that.

Instead, these facts that prison officials are bound as to the manner in which they withdraw the
monies are overlooked. In Oregon, this is the Oregon Property Exemption Rules announced in ORS
18.345(1 )(o)(20II) and ORS 18.385(1) that were recognized as applying to a Prisoner's Bank Account
in Schlunt v. Nooth, 261 Or. App. 866, 326 P.3d 1289(Or. App., 2014) and Schlunt v. Nooth, 355 Or.
668, 330 P.3d 27 (Or., 2014), which were upheld through the Oregon Court of Appeals and Supreme
Court.
These rules and clarifications clearly point out that when a prisoner, or, any Oregonian for that
matter, has $400 or less in their bank accounts, no funds can be collected to pay towards any debts
except restitution.
Furthermore, being that the very defendants in this case are the very defendants that lost in the
cases of Schlunt v. Nooth, 261 Or. App. 866, 326 P.3d 1289(Or. App., 2014) and Schlunt v. Nooth, 355
Or. 668, 330 P.3d 27 (Or., 2014). They knew full well that continuing such actions weighed heavily on
the lines of unconstitutional. This was also another reason why I wanted counsel as it is clear from
2013 on, that the defendants were actively engaged with the legislature here in Oregon trying to get
legislation approved to bypass this ruling. Accumulating such evidence was outside of my capabilities
as a pro se and incarcerated litigant.
In fact, the Department of Corrections after the filing of this suit changed some of it's rules to be
more in line with that of the Federal Rules on collecting such debts as in 20% payments of the previous
months total income, which they are still doing wrong as they are just taking 20% of everything that
comes in violating their own new guidelines.
However, the point is that I wanted to present this to a jury to show that they were knowing and
actively trying to bypass their wrongdoings by getting legislation passed to the contrary, which would
also prove against qualified immunity claims.
Yet, the district court in a grave miscarriage ofjustice that was compounded by the 9"1 Circuit
Court of Appeals, completely manipulated my case into the single issue of whether prison officials had

the right to collect monies or not from my bank account, which was not at issue in my case.
Therefore, it is my hope to prove this to this most honorable court and hopefully get
clarification that courts should not use other cases to completely squash another issue or case unless the
issues at issue have been raised in both cases. That doing so is like creating a “blanket” ban on the
issues no matter if they are related or not and despite the circumstances of the individual case and
issues before it.
And, to resoundingly clarify that just because the law does not bar any particular action such as
withdrawing funds from a prisoners' bank account, does not mean that they can ignore the statutes
controlling the manner in which they do so.
Also, I would pray for this honorable court to recognize the need to clarify an importance of
lower courts to fully vet the need for assistance of counsel in a case involving a pro se and incarcerated
litigant, especially, for the summary judgment proceeding, which has truly become the pro se and
incarcerated litigant's trial proceeding. As lower court judges are setting an extremely high standard in
which pro se and incarcerated litigant's have to basically prove their case before ever being allowed to
present such to a jury, which extremely prejudices the litigant as doing so allows the defendants to see
every aspect of a litigant's case before even proceeding to trial, which further compounds the
miscarriage of justice and fairness of the proceedings.
Furthermore, it is my hope that I may be able to show this court that a lot of the issues that face
pro se and incarcerated litigants can be resolved by simply assuring that courts are using a more
clarified and specific fact checker as detailed in this writ when determining to, in the very least, assist
pro se and incarcerated litigants in obtaining counsel.
This especially so where the court refuses or denies a pro se and incarcerated litigant discovery,
expert witnesses or any other meaningful resource while demanding them to proceed to defend their
cases from the very severe consequences of summary judgments.
Let’s face it, an unrepresented pro se and incarcerated litigant does not actually get his or her

day in court. In such a case, only the “paperwork” that cannot object or bring a court's attention to a
clarification or misunderstanding does. The difference is that after courts render their decision, they do
not “reconsider” their decisions.
Therefore, issues that could actually be raised in a hearing proceeding when represented by
counsel are lost and not afforded to pro se and incarcerated litigants trying to represent their cases in a
very severe environment of a summary judgment proceeding.
The reality here is that there is “a lot of meat on the bones” per say in this case before this
Honorable Court to be able to bring some understanding to all States of the United States of America
and it’s litigants, especially incarcerated ones, which is very important, especially during these times.
I am a pro se litigant whom was not only denied the assistance of counsel, however, the Court
refused to even request the assistance of counsel for me. This is after the Court’s initial screening of the
case, which the court passed and allowed to proceed to further proceedings, in this instance, summary
judgment proceedings. At which point, the court failed or refused my motions for discovery, ultimately,
denying me any resources whatsoever to defend myself or even present my case through the summary
judgment proceedings, see Simmons v. Jackson, 2016 U.S. Dist. LEXIS 146942 (Oct. 24th, 2016): A
court abuses its discretion by not considering a “series” of factors when determining whether there are
exceptional circumstances to justify the appointment of counsel. See Ulmer, 691 F.2d at 212.
In determining whether to appoint counsel for an indigent plaintiff, the court must consider: (1)
the type and complexity of the case; (2) whether the plaintiff can adequately present the case; (3)
whether the plaintiff can adequately investigate the case; and (4) whether the evidence will consist in
large part of conflicting testimony so as to require skill in the presentation of evidence and cross
examination. Pinson, 2015 U.S. Dist. LEXIS 27787, 2015 WL 1000914, at *1 (citing Ulmer, 691 F.2d
at 213).
See also, SEC v. Stanford Int'l Bank Ltd, 2018 U.S. Dist. LEXIS 135690 (May 10th, 2018): In
determining whether to exercise its discretion to appoint counsel for an indigent person, a court must

consider: (1) the type and complexity of the case; (2) the indigent person's ability to present and
investigate her case; (3) the presence of evidence that will largely consist of conflicting testimony so as
to require skill in the presentation of evidence and in cross-examination; and (4) the likelihood that
appointing counsel will benefit the parties and the court by shortening the trial and assisting in a just
determination.
And, United States v. 30.64 Acres ofLand, 795 F.3d 796 (1986): A federal court has a duty
under 28 U.S.C.S. c 1915(d) to assist a party in obtaining counsel willing to serve for little or no
compensation. The court does not discharge this duty if it makes no attempt to request the assistance of
volunteer counsel or, where the record is not otherwise clear, explain its failure to do so.
Therefore, it appears that there is actually five(5) factors for determining the appropriateness for
appointment of counsel in this case: (1) the type and complexity of the case; (2) the indigent person's
ability to adequately present his or her case; (3) the indigent person's ability to adequately investigate
his or her case; (4) the presence of evidence that will largely consist of conflicting testimony so as to
require skill in the presentation of evidence and in cross-examination; and (5) the likelihood that
appointing counsel will benefit the parties and the court by shortening the trial and assisting in a just
determination.
Furthermore, it appears that these precedent cases, in determining to appoint or not appoint
counsel in any specific case, set out their facts and conclusions somewhat “categorically” as listed in
the previous paragraph, none of which happened in this case.
Even this Honorable Court has ruled in Beard v. Banks, 548 U.S. 521, 530-33, 126 S.Ct 2572
(2006) that “it is not inconceivable that a Plaintiffs counsel, through rigorous questioning of officials
by means of depositions, could demonstrate genuine issues of fact for trial.” 548 US at 536.
However, it does not stop there, another aspect of this has arisen since District Courts have
recently ruled and the States are mixed on this, that even if the FRCP does not give authority to the

courts to appoint counsel, that courts nonetheless, have inherent authority to do so and in the very least,
if a court fails to even try and request counsel to accept appointment, it abuses it's discretion in that
failure, See, Garcia v. Davis, 2018 U.S. Dist. LEXIS 192801 (Nov. 09"', 2018): Naranjo v. Thompson,
809 F.3d 793, 802 (5th Cir. 2015) (Federal courts' inherent powers undoubtedly encompass the
appointment of counsel).
The Court noted in Naranjo v. Thompson, 809 F.3d 793, 799 (5th Cir. 2015):
1) The federal courts have inherent authority to order attorneys to represent litigants without
pay. Simply by virtue of having been created, federal courts are vested with inherent power
to take action essential to the administration ofjustice;
2) Accordingly, courts have (at least in the absence of legislation to the contrary) inherent
power to provide themselves with appropriate instruments required for the performance of their
duties. Action taken by a federal court in reliance on its inherent powers must somehow be
indispensable to reaching a disposition of the case;
3) When a pro se litigant proceeds to trial after having been denied appointed counsel, his
performance at trial is affected by that denial, and the denial is held erroneous on appeal, the
ordinary remedy is remand for retrial with the assistance of recruited pro bono counsel.
Similarly, where a denied motion for appointment of counsel is followed by a denied motion to
amend the complaint, the Eleventh Circuit has indicated that a plaintiff should be afforded a
renewed opportunity to amend his complaint on remand with the aid of counsel;
4) During discovery, a pro se plaintiffs lack of resources and his unfamiliarity with discovery
rules and tactics put him at a significant disadvantage;
5)Because summary judgment’s consequences are so severe, courts must always guard against
premature truncation of legitimate lawsuits merely because of unskilled presentations.

If you compile this with other issues listed above, especially pertaining to the appointment of
counsel, I would pray that there is enough here in this instant case for this Honorable and Highest Court
of our nation to take interest in considerations for some of it's lowest citizens, America's Prisoners and
at least find one issue to address to bring some light and justice to us.
Therefore, I pray that this Honorable Court will find merit in hearing this case. Even if the
ruling turns out to not be in my favor, it would still be valuable to the United States as a whole to know
this Court's opinions on some of these matters.

Finally, I pray for this most Highest and Honorable Courts' understandings as to any errors that I
have made in trying to present these Constitutional issues to this Court. I am trying to give enough
information on this case without actually briefing the entire case at the same time as I believe that is
appropriate for further proceedings if I am allowed to proceed.
Again, I do not know and am most humbly at the mercy of this Court.

CONCLUSION

The petition for a writ of certiorari should be granted.

DATED this 05th day of March, 2021.

Respectfully Submitted By:

James Arthur Ross, Pro Se'
S.I.D.#12599830
Two Rivers Correctional Institution
82911 Beach Access Rd.
Umatilla, OR 97882

